HHS/OIG, Audit -"Review of Cardiac Rehabilitation Services at Community Memorial Healthcare, Inc., Marysville, Kansas,"(A-07-03-00156)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Cardiac Rehabilitation Services at Community Memorial Healthcare, Inc., Marysville, Kansas," (A-07-03-00156)
February 4, 2004
Complete
Text of Report is available in PDF format (237 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objectives of this review were to determine whether:  (1) Community
Memorial Healthcare's (CMH) policies and procedures reflected Medicare cardiac rehabilitation coverage requirements for
direct physician supervision, incident to services, and Medicare covered diagnoses; and (2) payments to CMH for outpatient
cardiac rehabilitation services provided to Medicare beneficiaries during Calendar Year (CY) 2001 were for Medicare covered
diagnoses, were supported by adequate documentation, and were otherwise allowable for reimbursement.  CMH did
not designate a physician to supervise the services provided by its cardiac rehabilitation program.  In addition
we could not identify the physician professional services to which the cardiac rehabilitation services were provided incident
to.  With regard to the $6,474 of Medicare claims paid for the 18 beneficiaries receiving services during CY 2001,
no other problems were noted.